               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




     Postal Service Performance During
      the Fiscal Year 2013 Fall Mailing
                   Season

                       Audit Report




                                              March 29, 2013

Report Number NO-AR-13-002
                                                                         March 29, 2013

                                                  Postal Service Performance During
                                             the Fiscal Year 2013 Fall Mailing Season

                                                        Report Number NO-AR-13-002



BACKGROUND:
Generally, the U.S. Postal Service’s         expanded use of the Intelligent Mail ®
performance is impacted in the fall by       barcode, which allows the Postal
higher than normal Standard Mail ®           Service to track mail through the mail
volume in response to increased              processing network.
back-to-school and winter holiday
advertising. In fiscal year (FY) 2012,       While we commend the Postal Service
some Postal Service mailers expressed        for these improvements, opportunities
concern about a greater amount of            remain to further reduce delayed mail.
delayed mail during the fall mailing         We found that mail was not always
season which occurs from October             properly staged for first-in first-out
through December each year. Our              processing due to floor congestion
objective was to assess the Postal           caused by excess mail transportation
Service’s performance during the FY          equipment, such as mail tubs and trays.
2013 fall mailing season.
                                             As a result, the Postal Service cannot
WHAT THE OIG FOUND:                          ensure the timely processing, dispatch,
The Postal Service made significant          and delivery of Standard Mail. Although
progress reducing the amount of              delayed mail experienced a downward
delayed mail (not processed in time to       trend, any amount of delayed mail could
meet its delivery day) at the 43 largest     result in revenue loss, as affected
mail processing and distribution centers     mailers and customers seek other
during the 2013 fall mailing season.         alternatives. We estimated
Delayed mail declined from the prior fall    that $3.8 million in revenue could be at
mailing season by 56 percent, or from        risk if customers elect to use alternative
1.034 billion to 438 million mailpieces.     advertising or delivery methods.
Service performance achievement
scores measure the time from when            WHAT THE OIG RECOMMENDED:
mail is picked up at the collection box to   We recommended the vice president,
when its delivered. These scores rose to     Network Operations, coordinate with
90.71 percent during the 2013 fall           area vice presidents to ensure that all
mailing season from 81.20 percent            field personnel properly color code
during the same period last year.            Standard Mail in accordance with Postal
                                             Service policy and properly store mail
Much of the decline in delayed mail can      transportation equipment to facilitate
be attributed to management's                mail flow.
emphasis on timely processing of mail
to include a readiness checklist and         Link to review the entire report
March 29, 2013

MEMORANDUM FOR:            DAVID E. WILLIAMS, JR.
                           VICE PRESIDENT, NETWORK OPERATIONS




FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General
                            for Mission Operations

SUBJECT:                   Audit Report – Postal Service Performance During the Fiscal
                           Year 2013 Fall Mailing Season
                           (Report Number NO-AR-13-002)

This report presents the results of our audit of U.S. Postal Service Performance During
the Fiscal Year 2013 Fall Mailing Season (Project Number 12XG032NO001).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director,
Network Processing and Transportation, or me at 703-248-2100.

Attachments

cc: Megan J. Brennan
    Deborah Giannoni-Jackson
    Area Vice Presidents
    Corporate Audit and Response Management
Postal Service Performance During the                                                                              NO-AR-13-002
 Fiscal Year 2013 Fall Mailing Season



                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Fiscal Year 2013 Fall Mailing Season Initiatives ............................................................. 2

Delayed Mail Volume and Service Scores ...................................................................... 3

Recommendation ............................................................................................................ 8

Management’s Comments .............................................................................................. 8

Evaluation of Management’s Comments ......................................................................... 8

Appendix A: Additional Information ................................................................................. 9

   Background ................................................................................................................. 9

   Objective, Scope, and Methodology .......................................................................... 10

   Prior Audit Coverage ................................................................................................. 11

Appendix B: Other Impacts ........................................................................................... 14

Appendix C: Delayed Mail as a Percentage of First-Handling Piece Volume for the
   43 Largest Plants .................................................................................................... 15

Appendix D: Management's Comments ........................................................................ 17
Postal Service Performance During the                                                                 NO-AR-13-002
 Fiscal Year 2013 Fall Mailing Season



Introduction

This report presents the results of our audit of U.S. Postal Service Performance During
the Fiscal Year (FY) 2013 Fall Mailing Season (Project Number 12XG032NO001). The
objective of this audit was to assess Postal Service performance during the FY 2013 fall
mailing season. This is the second of two reports. The first report1 focused on the Postal
Service’s progress in addressing large business mailer concerns about the Postal
Service’s mail operations’ feedback system for the FY 2013 fall mailing season. This
self-initiated audit addresses operational risk. See Appendix A for additional information
about this audit.

Some mailers were concerned about the Postal Service’s ability to process mail timely,
especially during peak mailing periods, such as the fall mailing season.2 Generally, the
Postal Service’s performance is impacted in the fall by higher than normal Standard
Mail® volume in response to increased back-to-school and winter holiday advertising.
The Postal Service considers mail to be delayed in processing when it does not meet
established mail processing goals; however, a mailpiece may still be dispatched in time
to meet its expected delivery date. In response to mailer concerns, the Postal Service
increased its emphasis on processing mail timely.3

Conclusion

The Postal Service made significant progress reducing delayed mail4 during the
FY 2013 fall mailing season and increasing service performance for timely delivery of
mail. We can largely attribute these improvements to initiatives to address delayed mail,
including the use of a fall mailing season readiness checklist and expanded the use of
the Intelligent Mail® barcode (IMb) service performance diagnostic (SPD) tool which
allows the Postal Service to track mail through the mail processing network. Delayed
mail declined from the prior fall mailing season by 56 percent, or from 1.034 billion to
438 million mailpieces. Service performance achievement scores5 rose to 90.71 percent
during the FY 2013 fall mailing season, up from 81.20 percent during the same period
the previous year.6

While the Postal Service is to be commended for these improvements, opportunities to
further reduce delayed mail remain. Our observations determined that mail was not



1
  Management Alert – Customer Service Feedback (Report Number NO-MA-13-001, dated December 17, 2012).
2
  Fall mailing season is from October 1 to December 31.
3
  See Postal Service management comments in Postal Service Performance During the 2010 Fall Mailing Season
(Report Number NO-AR-11-007, dated September 7, 2011).
4
  Delayed mail occurs when committed mail is not processed and finalized in time to meet its intended delivery day.
5
  Service performance achievement scores measure the time it takes from deposit of mail into a collection box or
lobby chute until its delivery to a home or business.
6
  IMb data used to determine service scores was not available for the FY 2011 fall mailing season.
                                                         1
Postal Service Performance During the                                                                  NO-AR-13-002
 Fiscal Year 2013 Fall Mailing Season


always properly color coded7 and, in some cases, could not be staged properly due to
floor congestion caused by unprocessed mail transportation equipment (MTE8).

As a result, the Postal Service cannot ensure the timely processing, dispatch, and
delivery of Standard Mail. Although delayed mail trended downward, any amount of
delayed mail could result in possible revenue loss as affected mailers and customers
seek alternatives. We conservatively estimate that $3.8 million in revenue could be at
risk if customers elect to use alternative advertising or delivery methods. See Appendix
B for a detailed explanation of revenue at risk.

Fiscal Year 2013 Fall Mailing Season Initiatives

The Postal Service implemented several initiatives during the FY 2013 fall mailing
season that contributed to improved performance from the prior year. These initiatives
included:

   Using a fall mailing season checklist to ensure readiness for the fall mailing season
    at the local plant level. The checklist includes reviews of customer communications,
    projected volume and capacity, employee complement, equipment, transportation,
    and space and contingency planning.

   Holding several webinars on the Flat Sequencing System (FSS9) and political mail
    processing, as well as color-code procedures.

   Expanding use of the IMb SPD tool to track individual mailings to identify bottlenecks
    and potential delays. This allowed local plant management to take corrective action
    to minimize the risk of delayed mail.

   Having mail processing plants provide daily reports on their on-hand and delayed
    mail volumes. The Postal Service’s National Operations Center considered and
    reviewed this information to identify plants with unusually high on-hand or delayed
    volume based on pre-determined thresholds. This information was directed to senior
    plant management for corrective action.

   Increasing the budget for MTE to $120 million from the previous year’s $48 million (a
    150 percent increase) to ensure that adequate MTE was available. In addition, the
    Postal Service launched the first phase of the mail transport equipment ordering
    system. This system provided the 400 largest mailers with a tool to order and track
    MTE online.

   Using FSS tiger teams10 to review operations at all 46 FSS sites to help ensure
    timely processing of flat mail.
7
  Application of color codes is based on the arrival date and time mail entered at the facility and assists management
to sort mail timely.
8
  MTE includes tubs, trays, pallets, and containers used to transport the mail.
9
  FSS places mail in walk sequence delivery for the carriers.
10
   A group of experts assigned to investigate and/or solve technical or systemic problems.

                                                           2
    Postal Service Performance During the                                                                NO-AR-13-002
     Fiscal Year 2013 Fall Mailing Season



    Delayed Mail Volume and Service Scores

    Overall, delayed mail volume in Quarter (Q) 1, FY 2013 for the 43 largest plants11
    decreased significantly compared to the 2 prior years. For example, delayed mail as a
    percentage of total first-handling pieces (FHP12) volume was 2.38 percent compared to
    5.50 percent in FY 2012 and 6.45 percent in FY 2011 (see Table 1). Appendix C shows
    the percentage of delayed mail for each of the 43 plants for Q1, FYs 2011, 2012, and
    2013.

                   Table 1. Percentage of Delayed Mail at the 43 Largest Plants

                                                                                                  Percentage of
                Period                    FHP Volume                  Delayed Mail                Delayed FHP
     Q1, FY 2011                         18,712,693,480               1,207,650,578                    6.45%
     Q1, FY 2012                         18,814,699,772               1,034,604,568                    5.50%
     Q1, FY 2013                         18,407,925,863                438,369,015                     2.38%
    Source: Enterprise Data Warehouse (EDW).

    Moreover, during the FY 2013 fall mailing season, delayed mail volume declined from
    the prior fall mailing season by 56 percent, or from 1.034 billion pieces to 438 million
    pieces. In comparison, from the FY 2011 fall mailing season to the FY 2012 fall mailing
    season, delayed mail declined by 17 percent, or from 1.2 billion to 1.034 billion pieces.
    With the exception of Priority Mail and Periodicals,13 all classes of mail experienced a
    decrease in delays from Q1, FY 2011 to Q1, FY 2013, Q1 (see Table 2).

               Table 2. Delayed Mail Volume by Mail Class at the 43 Largest Plants

     Period          Priority       First-Class      Periodicals         Standard         Packages             Total
  Q1, FY 2011       1,013,837      38,650,685       41,771,183       1,125,917,720         297,153       1,207,652,589
  Q1, FY 2012       1,262,212      12,907,643       55,763,794         964,298,087         372,832       1,034,606,580
  Q1, FY 2013       1,875,071      18,024,330       45,747,732         372,581,889         139,993        438,371,028
Source: EDW.

    Also, service performance achievement scores increased to 90.71 percent during the
    FY 2013 fall mailing season, from 81.20 percent during the FY 2012 fall mailing season.

    While the Postal Service is to be commended for these improvements, opportunities to
    further reduce delayed mail remain.


    11
       The 43 largest plants process about 40 percent of total FHP volume.
    12
       The volume of mail handled for the first time at a mail processing facility.
    13
       Due to more stringent service performance standards, Periodicals and Priority Mail were severely impacted by
    Hurricane Sandy, resulting in an increase in delayed mail for the FY 2013 fall mailing season.

                                                             3
Postal Service Performance During the                                                              NO-AR-13-002
 Fiscal Year 2013 Fall Mailing Season


Color Coding and Mail Flow

During our plant observations, we noted mail that was not always properly color-coded
(see Figure 1 and Figure 2). According to the national color-code policy for Standard
Mail, color-coding procedures provide a guide to maintaining service goals for Standard
Mail. Color coding Standard Mail allows for the processing of mail in a first-in first-out
(FIFO)14 manner. Additionally, the tag identifies the mail's scheduled delivery day and
allows for accurate delayed mail reporting. By not accurately color coding the mail, the
Postal Service cannot ensure timely processing, dispatch, and delivery of
Standard Mail.

                   Figure 1. Mail Containers Missing Color-Code Information




Source: U.S. Postal Service Office of Inspector General (OIG) photograph taken October 23, 2012 at the Cleveland,
OH Processing and Distribution Center (P&DC). The color-code tag contains neither the date nor time, providing no
assurance that this mail was processed in FIFO order and accurately reported.




14
     Mail is staged and processed based on order of receipt.

                                                               4
Postal Service Performance During the                                                                NO-AR-13-002
 Fiscal Year 2013 Fall Mailing Season


                   Figure 2. Mail Containers Missing Color-Code Placards




Source: OIG photograph taken October 24, 2012 at the Cleveland, OH P&DC. Container of mail, identified as Political
Mail, did not have a color-code tag.

Observations at several plants revealed floor congestion caused by excess15 MTE in
staging areas, aisles, and other areas hindered the staging of mail and mail flow that
contributed to mail delays (see Figure 3 and Figure 4). Processing plants generate
empty MTEs whenever a tray of mail is emptied for processing. Once a tray is emptied,
it should be stacked on a pallet to eliminate re-handling and floor congestion. Once the
pallet is full, the trays should be shrink-wrapped and ready for their next use (see Figure
5).




15
  Observations revealed excessive mail transportation equipment at the St. Louis, Philadelphia, and Charlotte
P&DCs.

                                                         5
Postal Service Performance During the                                                           NO-AR-13-002
 Fiscal Year 2013 Fall Mailing Season


                 Figure 3. Excessive Empty Equipment on the Work Floor




Source: OIG photograph taken November 14, 2012. Empty mail equipment stacked on the work floor taking
up space that could be used for mail processing at the St. Louis, MO P&DC.

                 Figure 4. Excessive Empty Equipment on the Work Floor




Source: OIG photograph taken December 12, 2012. Empty mail equipment stacked on the work floor taking
up space that could be used for mail processing at the Philadelphia, PA P&DC.




                                                      6
Postal Service Performance During the                                                            NO-AR-13-002
 Fiscal Year 2013 Fall Mailing Season


                           Figure 5. Best Practices for MTE Handling




         Source: OIG archived photograph, taken May 10, 2011. Example of properly stacked MTE at the
         Miami, FL P&DC.

Revenue at Risk

Delayed mail had a negative impact on service. For example, the 21 P&DCs with the
highest volumes of delayed mail, or those above the median,16 did not achieve the
same level of IMb service performance as the 21 P&DCs with lower volumes of delayed
mail (see Table 3).

     Table 3. IMb Service Performance and Delayed Mail for the 43 Largest P&DCs
                                    Q1, FY 2013

                                                                                  IMb Service
                                                                                  Performance
            Description                                                              Score
            21 largest P&DCs with above median delayed mail                          87.90%
            21 largest P&DCs with below median delayed mail                          93.07%
          Source: SPD.

In addition, high volumes of delayed mail adversely impact mailers and increase the risk
that Standard Mail delivery may be late. This could result in customers seeking
alternative advertising or delivery methods outside of the Postal Service.


16
  The median amount of delayed mail in Q1, FY 2013 was 1.56 percent of total FHP volume. There were 21 plants
above the median and 21 plants below the median.

                                                       7
Postal Service Performance During the                                         NO-AR-13-002
 Fiscal Year 2013 Fall Mailing Season


We conservatively estimated that $3.8 million in revenue could be at risk if customers
elect not to use the Postal Service. See Appendix B for a detailed explanation of
revenue at risk.

Recommendation

We recommend the vice president, Network Operations, coordinate with area vice
presidents to:

1. Ensure that all field personnel properly color code Standard Mail in accordance with
   Postal Service policy and store mail transportation equipment to facilitate mail flow.

Management’s Comments

Management agreed with the recommendation. They stated that, effective August 2013,
Processing Operations management will ensure that all field personnel are properly
color-code trained and the MTE is processed in a way that facilities mail flow. See
Appendix D for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service OIG considers management’s comments responsive to the
recommendation and corrective actions should resolve the issues identified in the
report.

The OIG considers recommendation 1 significant and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed. This recommendation should not be closed in the Postal
Service’s follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.




                                            8
Postal Service Performance During the                                                                 NO-AR-13-002
 Fiscal Year 2013 Fall Mailing Season


                                 Appendix A: Additional Information

Background

Despite continued success in generating new package delivery revenue,
improving efficiency, and reducing costs, the Postal Service ended FY 2012 with a net
loss of $15.9 billion. Contributing significantly to this loss was $13.5 billion in expenses
for the legislatively mandated prefunding of retiree health benefits. There has been a
continual decline in mail volume since peaking at 213 billion pieces in 2006. In FY 2012,
the total number of mailpieces declined from 168.3 billion to 159.9 billion. Overall,
delayed mail volume during Q1 of the FY 2013 fall mailing season for the 43 largest
plants decreased significantly compared to Q1 of FYs 2012 and 2011.

                                    Figure 6. Delayed Mail Volumes




The Postal Service measures service performance in terms of speed and reliability.
Single-piece First-Class Mail includes letters, flats, and parcels and is measured from
collection box drop point to delivery. Standard Mail is a class of mail consisting of
mailable matter that is not required to be mailed as First-Class Mail or Periodicals.17
Standard Mail service performance is tracked by an IMb which documents mail arrival
time at a designated postal facility to start the clock and is scanned by an external,
third-party reporter to stop the clock. This data is collected and provided to an
independent, external contractor to calculate service measurement. 18

17
   Service performance for Periodicals (for example, publications) and Package Services, which includes Parcel Post,
Bound Printed Matter, Media Mail, and Library Mail is measured from entry into the Postal Service system to delivery.
18
   The system used for this reporting is called iMAPS.

                                                          9
Postal Service Performance During the                                        NO-AR-13-002
 Fiscal Year 2013 Fall Mailing Season



Objective, Scope, and Methodology

Our objective was to assess the Postal Service’s performance during the FY 2013 fall
mailing season. To meet our objective, we conducted interviews and analyzed mail
volume and trends. We also conducted site visits at five P&DCs with high delayed mail
volume. We used computer-processed data from the Mail Condition Reporting System,
the Intelligent Mail Accuracy and Performance System, and the EDW. We pulled data
from October 1, 2011, through December 31, 2012, but did not test controls over these
systems. We assessed the reliability of volume data by interviewing knowledgeable
Postal Service managers and determined that the data were sufficiently reliable for the
purposes of this report.

We conducted this performance audit from October 2012 through March 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on February 13, 2013, and included
their comments where appropriate.




                                           10
     Postal Service Performance During the                                            NO-AR-13-002
      Fiscal Year 2013 Fall Mailing Season


     Prior Audit Coverage

                                                         Final            Monetary
                                                        Report           Impact (in
         Report Title               Report Number        Date             millions)
Customer Service Feedback          NO-MA-13-001       12/17/2012           None
Report Results:
Although preparing for and reporting on a good start to this fall’s mailing season,
some large business mailers raised concerns about mail operations’ feedback
system during this fall’s mailing season. While the Postal Service has a tracking and
feedback system, it is not effective or robust enough for mailers' needs. Specifically,
we found the system is not designed to provide timely, well-informed feedback to
customers, nor is it set up to provide maximum mail visibility to customers. These
conditions occurred because (1) some Business Service Network representatives
have limited knowledge and access to mail processing operations and (2) the
feedback process was cumbersome. Timely, responsive feedback to mailers and
customers is critical to preserving revenue for the Postal Service. Management
agreed to provide training to Business Service Network representatives on the SPD
tool and provide continuous feedback to field operations for customer service
requests that have not been abated within 24 hours.

Timeliness of Mail Processing      NO-AR-12-010        9/28/2012       $17,330,587
at Processing and Distribution
Centers
Report Results:
Through the first 3 quarters of FY 2012, the Postal Service made significant
progress in reducing the amount of delayed mail at the 43 largest P&DCs in its
network. They also improved service performance scores as measured by the
Intelligent Mail Accuracy and Performance System. During this period, about 2.6
percent of total mail volume was reported as delayed, compared to 4.8 percent in FY
2011. About 1.4 billion mailpieces have been reported delayed in the first 3 quarters
of FY 2012, while about 3.5 billion mailpieces were reported delayed during the
same period in FY 2011. Management agreed to continue evaluating operations,
including consolidations, to reduce the amount of delayed mail in the network and
ensure that field personnel are properly trained in color coding Standard Mail, as
well as the counting and reporting delayed mail in accordance with current policies.




                                                 11
    Postal Service Performance During the                                         NO-AR-13-002
     Fiscal Year 2013 Fall Mailing Season




                                                         Final           Monetary
                                                        Report          Impact (in
          Report Title                 Report Number     Date            millions)
Timely Processing of Mail at        NO-AR-12-008       9/18/2012          None
the Pittsburgh, PA Processing
and Distribution Center
Report Results:
The Pittsburgh P&DC experienced difficulties with timely processing of all mail
during FY 2011, the bulk of it being Standard Mail. Among the 43 largest Postal
Service facilities, the Pittsburgh P&DC ranked second highest, with more than
12 percent of delayed mail volume. The primary causes for the excessive delayed
mail were underuse of mail processing equipment, poor mail flow, and failure to
follow operating procedures. As a result, mail was not processed in a timely manner,
thereby adversely impacting customer service and jeopardizing Postal Service
revenue. Management agreed to adjust workhours, assignments, and other
operational requirements to ensure the Pittsburgh P&DC processes mail timely
compared to similar-sized sites. Management also agreed to increase tray sorters’
capacity and throughput and expand the windows of operation, improve mail flow
throughout the facility, and train employees to ensure proper color coding of
Standard Mail according to Postal Service policy.

Timely Processing of Mail at        NO-AR-11-008        9/13/2011          None
the Richmond, VA Processing
and Distribution Center
Report Results:
The Richmond P&DC experienced difficulties with timely processing of mail during
FY 2010 and Q1, FY 2011. Delayed mail volume rose from 22.6 million to
54.2million mailpieces over a 2-year period. This represented an increase in delayed
mail volume of more than 139 percent, while similar-sized facilities decreased delays
by 3 percent over the same period. Causes of the excessive delayed mail were
inadequate staffing and supervision, low mail throughput on machines, and failure to
consistently color code arriving mail. Other causes included not accurately
identifying and reporting delayed mail and mail damage caused by poor packaging.
Management agreed with the recommendations and indicated they have created a
Lean Six Sigma team to address delayed mail concerns and developed a scheduling
model to assist plant management in aligning resources with workload. Management
has also filled vacant craft positions and appointed a new plant manager. To
increase machine run times, plant management established daily tracking
mechanisms to monitor machine throughputs, runtime, and productivities.




                                                 12
     Postal Service Performance During the                                          NO-AR-13-002
      Fiscal Year 2013 Fall Mailing Season


                                                          Final
                                                         Report              Monetary
           Report Title             Report Number         Date                Impact
Postal Service Performance          NO-AR-11-007        9/7//2011           $10,900,000
During the 2010 Fall Mailing
Season
During the 2010 fall mailing season, the U.S. Postal Service had more than
3.4 billion delayed mailpieces, a 37 percent increase compared to the same period
last year. About 95 percent of this delayed mail was Standard Mail. This adversely
impacted service and resulted in about $10.9 million in revenue at risk. Factors
contributing to this condition included failure to adjust mail flow, sort plans, and
staffing to meet operational changes, particularly when implementing consolidations
and realignments. We identified a very small amount of stand-by time (or idle time)
during this period; thus, it appears the vast majority of employees were engaged in
processing mail. Contributing factors also included underestimating mail volume,
underutilizing machines, not consistently color coding mail, and not accurately
identifying and reporting delayed mail. We have referred three instances of
intentional misreporting of delayed mail to the Office of Investigations over the past
several years. Management agreed with the recommendations and indicated they
will develop checklists, action plans, and scheduling models to assist plant
management in planning for fall mail volume variations. In addition, operations will
work with the Business Service Network and Customer Outreach to identify plant
specific hotspots for delays and identify areas for improvement.




                                                 13
Postal Service Performance During the                                                                   NO-AR-13-002
 Fiscal Year 2013 Fall Mailing Season


                                        Appendix B: Other Impacts

We conservatively estimated that 1 percent of mail that failed to meet service
performance standards (about 11.7 million mailpieces) is at risk of diversion to
alternative advertising or delivery methods outside the Postal Service. We determined
that about $3.8 million19 of the revenue associated with the failed mailpieces is at risk.

                                               Revenue at Risk20

            Recommendation                          Impact Category                         Amount
                  1                                  Revenue at Risk                      $3,752,245


Should high delayed mail volume negatively impact customer service or if customers
experience delays with their mail, it could cause some to seek alternative delivery
methods, further decreasing both mail volume and revenue.




19
   We conservatively estimated the revenue at risk for mailers selecting alternative delivery methods as 1 percent of
IMb failed pieces of more than 1.2 billion by the average revenue per mailpiece of 32 cents (1,172,576,610 x .01 =
11,725,766 x .32 = $3,752,245). We used this methodology in a previous OIG-issued report titled, Postal Service
Performance During the Fall Mailing Season (Report Number NO-AR-11-007, dated September 7, 2011).
20
   Revenue the Postal Service is at risk of losing (for example, when a mailer seeks alternative solutions for services
the Postal Service currently provides).


                                                          14
Postal Service Performance During the                                  NO-AR-13-002
 Fiscal Year 2013 Fall Mailing Season



          Appendix C: Delayed Mail as a Percentage of First-Handling Piece
                         Volume for the 43 Largest Plants

 *Rank                               Plant             Q1, FY 2012    Q1, FY 2013
    1      SAN FRANCISCO P&DC                             12.17%        QTR
                                                                         11.63%1
    2      MID-ISLAND P&DC                                 8.24%         7.71%

    3      DOMINICK V DANIELS P&DC                         0.65%         7.68%

    4      PITTSBURGH P&DC                                 9.90%         7.02%
    5      CLEVELAND P&DC                                 16.85%         5.59%
    6      PHILADELPHIA P&DC                               8.35%         4.85%
    7      MORGAN P&DC                                     4.67%         4.62%
    8      COLUMBUS P&DC                                  15.05%         4.30%
    9      TAMPA P&DC                                      3.45%         4.20%
   10      MINNEAPOLIS P&DC                                4.24%         3.74%
   11      NASHVILLE P&DC                                  4.34%         3.38%
   12      METROPLEX P&DC                                  7.84%         2.69%
   13      NORTH HOUSTON P&DC                              7.04%         2.59%
   14      CINCINNATI P&DC                                 6.78%         2.22%
   15      SANTA ANA P&DC                                  1.71%         2.09%
   16      SALT LAKE CITY P&DC                             5.05%         1.98%
   17      PALATINE P&DC                                  11.97%         1.94%
   18      LOS ANGELES P&DC                                2.55%         1.90%
   19      OAKLAND P&DC                                    9.45%         1.89%
   20      SAN ANTONIO P&DC                                1.44%         1.83%
   21      PORTLAND OR P&DC                                3.92%         1.81%
   22      ST. LOUIS P&DC                                  7.26%         1.56%
   23      PHOENIX P&DC                                    1.58%         1.43%
   24      HOUSTON P&DC                                    2.04%         1.04%
   25      MARGARET L. SELLERS P&DC                        4.88%         0.91%
   26      DENVER P&DC                                     2.31%         0.84%
   27      NORTH TEXAS P&DC                                3.56%         0.70%
   28      KANSAS CITY MO P&DC                             3.04%         0.53%
   29      CAROL STREAM P&DC                               3.70%         0.51%
   30      SACRAMENTO P&DC                                 1.67%         0.45%
   31      MILWAUKEE P&DC                                  3.91%         0.42%
   32      JACKSONVILLE P&DC                               2.36%         0.40%
   33      FT. WORTH P&DC                                  3.62%         0.40%
   34      INDIANAPOLIS P&DC                               4.54%         0.31%
   35      RICHMOND P&DC                                  11.57%         0.23%
   36      SEATTLE P&DC                                    0.10%         0.22%




                                             15
               Postal Service Performance During the                                    NO-AR-13-002
                Fiscal Year 2013 Fall Mailing Season



                           Appendix C: Delayed Mail as a Percentage of First-Handling Piece
                                    Volume for the 43 Largest Plants (Continued)

                    37     DALLAS P&DC                                     1.95%          0.18%
                    38     SANTA CLARITA P&DC                              2.25%          0.18%
                    39     Appendix
                           NORTH METRO C: Delayed
                                       P&DC        Mail as a Percentage    9.76%          0.17%
                    40      of First-Handling
                           CARDISS COLLINS P&DC Piece Volume for the 43    7.64%          0.13%
                    41     BALTIMORE P&DC Largest Plants                   2.86%          0.08%
                    42     ATLANTA P&DC                                    2.45%          0.02%
                    43     CHARLOTTE P&DC                                  7.24%          0.00%

                            Average                                        5.50%          2.38%
              *Rank
               *Rank is
                      is based on FY 2013 percentage.
based on FY 2013
percentage.




                                                           16
Postal Service Performance During the                          NO-AR-13-002
 Fiscal Year 2013 Fall Mailing Season



                           Appendix D: Management's Comments




                                          17
Postal Service Performance During the        NO-AR-13-002
 Fiscal Year 2013 Fall Mailing Season




                                        18
